COCKLE

2311 Douglas Street VA Legal Briefs E-Mail Address:

Omaha, Nebraska 68102-1214 Hee 1954 contact@cocklelegalbriefs.com
+1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-910

K.G.S., INDIVIDUALLY AND AS GUARDIAN AND NEXT
FRIEND OF BABY DOE, A MINOR CHILD,
Petitioner,

v.
FACEBOOK, INC.,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 9th day of April, 2020, send out
from Omaha, NE | package(s) containing 3 copies of the REPLY BRIEF FOR THE PETITIONER in the above entitled case.
All parties required to be served have been served by third-party commercial carrier for delivery within 3 calendar days.
Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
Andrew P. Campbell Ruthanne M. Deutsch
Yawanna McDonald Counsel of Record
CAMPBELL PARTNERS Hyland Hunt
505 Twentieth St. North DEUTSCH HUNT PLLC
Suite 1600 300 New Jersey Ave. N.W.
Birmingham, AL 35203 Suite 900
(205) 224-0750 Washington, DC 20001
(202) 868-6915
rdeutsch@deutschhunt.com

Counsel for Petitioner

Subscribed and swom to before me this 9th day of April, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

Keres. 0. tase? Onadeawht. hile

Notary Public

     

f GENERAL NOTARY-State of Nebraska
RENEE J. GOSS
My Comm. Exp. September 5, 2023

 

sian 39706
 

 

Mitchell Pearsall Reich Hogan Lovells US LLP 202-637-5833
Counsel of Record 555 Thirteenth St. NW
Washington, DC 20004

mitchell.reich@hoganlovells.com

 

 
